By Electronic Filing

June 9, 2021

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Re:

Joseph Colone v. Superior Court of California, San
Francisco County, et al., No. 20-1474

Dear Mr. Harris:
We represent Real Party in Interest GitHub, Inc.1 in the above-captioned
case. The petition for a writ of certiorari in this case was filed on April 13, 2021,
and my client waived its right to respond on May 4, 2021. On June 7, 2021, the
Court requested we file a response brief in this case, to be filed on or before July 7,
2021.
Pursuant to Rule 30.4 of the Rules of this Court, we respectfully request a 30day extension of the deadline to file a response brief, to August 6, 2021. This
extension is necessary because the attorneys responsible for preparing the response
have commitments in other matters during this time.

Respectfully submitted,

Alexander A. Berengaut

1

GitHub, Inc. is a wholly-owned subsidiary of Microsoft Corp.

